                                                                UNITED STATES DEPARTMENT OF COMMERCE
                                                                The Inspector General
                                                                Washington, D.C. 20230


June 28, 20 13

The Honorable Darrell lssa 

Chairman 

Committee on Oversight and Government Reform 

U.S. House of Representatives 

Washington, DC 20515-6143 


Dear Mr. Chairman:

In response to your request of June 17, 20 13, we are providing current information on our 

office's open and unimplemented recommendations, including: 

        • 	 The number of open and unimplemented recommendations (see enclosure I)
        • 	 The cumulative estimated cost savings associated with the current number of open and
            unimplemented OIG recommendations (see enclosure 2)

        • 	 Those recommendations that would result in cost savings if implemented (see enclosure
            2)-for which we include the recommendation, the date the recommendation was
            made, and the cost savings that we believe would be realized if agency management
            implemented the recommendation
As requested, we also identify what we consider to be the three most important
unimplemented recommendations we have made to the Department or its bureaus (for further
details, see enclosure 3), concerning:

        • 	 Departmental contracts
        • 	 Departmental IT security
        • 	 National Oceanic and Atmospheric Administration environmental satellite programs
If you have any questions or require additional information, you or your staff may contact me at
(202) 482-4661 or Ann Eilers, Principal Assistant Inspector General for Audit and Evaluation, at
(202) 482-2754.
Sincerely,

'I~t ~ ... .._ _­
Todd J. Zinser

Enclosures

cc: 	      The Honorable Elijah E. Cummings, Ranking Minority Member
           The Honorable Penny Pritzker, Secretary of Commerce
Enclosure 1:

OIG’s Open and Unimplemented Recommendations as of June 21, 2013

                                             Recommendations
    Calendar     Recommendations                                         Recommendations Still
                                                 Still Open
    Year              Made                                                  Unimplemented
                                               (Unresolved)
    2007                  187                          0                               1
    2008                  143                          0                               0
    2009                  100                          0                               2
    2010                   93                          0                               7
    2011                   52a                         0                              32
    2012                  125                          0                              95
    2013b                  46                         20                              26
    Total                 746                         20                             163
a
  A previous OIG table “OIG's Open and Unimplemented Recommendations Since 2007”—which we submitted in 

April 2012 as enclosure 1 in our response to the Committee’s request—included 14 recommendations from

financial assistance audits that are not included in this current table.

b
  As of June 21, 2013.


We compiled this table by reviewing all performance audit, evaluation, and inspection reports
that we issued during the period of January 1, 2007, through June 21, 2013. We have not
included classified or sensitive nonpublic recommendations, recommendations in financial
statement audits, or those addressed to specific nonfederal entities in connection with audits of
financial assistance awards.

After OIG issues a final report, a bureau has up to 60 days to submit a corrective action plan
for OIG’s approval. The 20 “open” (unresolved) recommendations from 2013 reports are due
to 3 reports for which the bureaus had not yet submitted corrective action plans as of June 21,
2013:
      •	 OIG-13-024-A, Audit of Geostationary Operational Environmental Satellite-R Series:
         Comprehensive Mitigation Approaches, Strong Systems Engineering, and Cost Controls Are
         Needed to Reduce Risks of Coverage Gaps (issued April 25, 2013)
      •	 OIG-13-025-A, Internal Controls for Purchase Card Transactions Need to Be Strengthened
         (issued May 2, 2013)
      •	 OIG-13-026-A, Monitoring of Obligation Balances Needs Strengthening

         (issued June 18, 2013)


“Unimplemented” recommendations have approved action plans, but the bureaus have not yet
completed their implementation of the recommendations.




                                                   2
Enclosure 2:
OIG’s Open and Unimplemented Recommendations That Have Associated
Estimated Cost Savings
The cumulative estimated cost savings associated with the current number of open and
unimplemented OIG recommendations is $385.3 million.

   Reports with Recommendations That Have Associated Estimated Cost Savings
                     Recommendations                          Estimated Cost Savings
Report: OIG-12-019-I, More Action Needed to Improve Controls in Asset Forfeiture
Fund (issued February 8, 2012)
We recommend that the Under Secretary of Commerce for
Oceans and Atmosphere require that the National Oceanic
and Atmospheric Administration’s (NOAA’s) Office of Law
Enforcement, the Enforcement Section, and NOAA Finance                 $871,000
                                                     a
implement a process to ensure that deposit account cases are funds to be put to better use
periodically reviewed and that legally resolved cases are
transferred from the deposit account or returned to a
respondent in a timely manner.

We recommend that the Under Secretary for Oceans and
                                                                                     $3,900,000
Atmosphere require that the Enforcement Section and NOAA
                                                                                  unsupported costs
Finance develop policies and procedures to consistently pursue
                                                                                    and write-offs
collection of fines and penalties in a manner that treats all
respondents uniformly, and in compliance with the Debt
Collection Improvement Act of 1996.
a
 The “deposit account” holds proceeds that are pending legal determination from the sale of property seized by
OLE agents. Once a case has a determination, funds should be moved from the deposit account in accordance with
the legal disposition—either by returning money to the respondent or transferring money to one of NOAA’s
marine resource funds.
Report: OIG-12-027-A, NOAA’s Cost-Plus-Award-Fee and Award-Term Processes Need

to Support Fees and Extensions (issued May 18, 2012)

We recommend that the Director of the NOAA Acquisition 

and Grants Office require performance monitors to provide

narrative comments that identify specific strengths, 

weaknesses, and deficiencies to support assigned ratings.
   $43,802,965
                                                                                   questioned costs
We recommend that the Director of the NOAA Acquisition
and Grants Office develop award-fee and award-term incentive
structures that encourage contractor excellence.

We recommend that the Director of the NOAA Acquisition
and Grants Office require a cost-benefit analysis in decisions                      $60,927,455
on cost-plus-award-fee and cost-plus-award-term contracts,                  funds to be put to better use
including documentation of how the benefits will offset the
costs and justifications and approvals for all contract actions
containing award-fee and award-term provisions.


                                                      3
   Reports with Recommendations That Have Associated Estimated Cost Savings
                       Recommendations                          Estimated Cost Savings
Report: OIG-13-001-I, Quarterly Conference Reporting Processes Need Improvement
(issued October 17, 2012)
We recommend that the Director of the Office of
Administrative Services strengthen operating policy to ensure
bureaus accurately report actual conference spending data,
identify estimated costs, and provide updates to these
estimates when actual costs become available.                            $282,637
                                                               funds to be put to better use
We recommend that the Director of the Office of
Administrative Services require bureaus to maintain supporting
documentation for costs incurred, planning considerations, and
decision justifications.
Report: OIG-13-010-I, U.S. Export Assistance Centers Could Improve Their Delivery
of Client Services and Cost Recovery Efforts (issued November 30, 2012)
We recommend the Director General of the U.S. & Foreign
Commercial Service take the following actions:
   •   Develop strategies for minimizing the administrative
       duties of trade specialists.
   •   Upgrade or replace the current Client Tracking System.
   •   Determine why some U.S. Export Assistance Centers                   $1,528,000
       (USEACs) are underperforming and take corrective           funds to be put to better use
       action or explore the following options: (1) consolidate
       lower-producing USEACs with higher-producing
       USEACs located within the same Metropolitan Statistical
       Area (MSA), (2) close lower-producing USEACs
       operating in MSAs with low export potential, and (3)
       consider closing vacant USEACs.




                                               4
   Reports with Recommendations That Have Associated Estimated Cost Savings
                        Recommendations                           Estimated Cost Savings
Report: OIG-13-016-A, Fourth Annual Assessment of the Public Safety Interoperable
Communications (PSIC) Grant Program (issued February 22, 2013)
We recommend that the Assistant Secretary for
Communications and Information pursue the return of
                                                                          $190,317
questioned unallowable costs for each grant recipient and
                                                                      questioned costs
determine the most appropriate process to recover
questioned costs in the future.
Report: OIG-13-024-A, Audit of Geostationary Operational Environmental Satellite-R
(GOES-R) Series: Comprehensive Mitigation Approaches, Strong Systems Engineering,
and Cost Controls Are Needed to Reduce Risks of Coverage Gapsa (issued April 25, 2013)
To limit cost overruns and improper award fees for GOES-R
Flight Project contracts, we recommend that the NOAA
Assistant Administrator for Satellite and Information Services
ensure that the National Aeronautics and Space Administration
                                                                        $105,940,788
(NASA) modifies advanced baseline imager, geostationary
                                                                funds to be put to better use
lightning mapper, and spacecraft contract award-fee structures
to reduce award fee percentages in accordance with the
current NASA Federal Acquisition Regulation Supplement, as
well as clearly articulates how scores should be adjusted based
on the magnitude of cost overruns.

To limit cost overruns and improper award fees for GOES-R
Flight Project contracts, we recommend that the NOAA                                   $8,857,750
Assistant Administrator for Satellite and Information Services                       questioned costs
ensure that NASA adjusts future award fees for the advanced
baseline imager to be more commensurate with contractor
performance and to incentivize the contractor to control
costs.
a
 In June 2013, we received NOAA’s action plan, in which the agency disagreed with taking any actions necessary to
implement the above-noted two recommendations. The disagreement invokes the audit resolution process.
Report: OIG-13-026-A, Monitoring of Obligation Balances Needs Strengthening
(issued June 18, 2013)
We recommend that the Office of the Secretary develop a
Department-wide initiative related to the timely liquidation,
deobligation, and closure of unneeded open obligations.
                                                                                      $159,000,000
We recommend that the Office of the Secretary enhance
                                                                              funds to be put to better use
policies and procedures to include specific, comprehensive
guidance for the consistent monitoring and deobligation of
unliquidated obligation balances, as well as ongoing
departmental oversight.




                                                       5
Enclosure 3:
OIG’s Top Three Open and Unimplemented Recommendations
as of June 21, 2013
Recommendations related to Departmental contracts, including OIG-12-027-A,
NOAA’s Cost-Plus-Award-Fee and Award-Term Processes Need to Support Fees and
Extensions (issued May 18, 2012)

In FY 2011, the Department obligated approximately $2.4 billion on contracts for goods and
services, including satellite acquisitions, intellectual property protection, broadband technology
opportunities, management of coastal and ocean resources, information technology, and
construction and facilities management. To maximize these funds, the Department needs to
strengthen its acquisition and contract management practices. While it has made some
progress, our audits continue to find weaknesses in how the Department and its agencies plan,
administer, and oversee contracts and acquisition programs.
One OIG audit report, from May 2012, contains important contracts-related recommendations
that remain unimplemented. This audit report relates to National Oceanic and Atmospheric
Administration’s (NOAA’s) rating and award-payment decisions when using cost contracts that
contain additional incentive award provisions (see table below):

                                Audit                                                                      Cost
Report                                           Top Unimplemented Recommendation(s)
                           Objective(s)                                                                   Savings
                       Assess award-fee and
                       award-term ratings
                       and payments made by      We recommend that the Director of the NOAA
                       the agency, based on      Acquisition and Grants Office require:
                       documentation used
OIG-12-027-A,                                    • performance monitors to provide narrative
                       to support them, and
NOAA’s Cost-Plus-                                  comments that identify specific strengths,
                       evaluate its award-fee                                                      Our audit report
Award-Fee (CPAF) and                               weaknesses, and deficiencies to support
                       and award-term                                                              identified $43,802,965
Award-Term (CPAT)                                  assigned ratings
                       guidance, payment                                                           in questioned costs
Processes Need to
                       structure, and            • a cost-benefit analysis in decisions on CPAF    and $60,927,455 in
Support Fees and
                       evaluation criteria for     and CPAT contracts, including documentation     unsupported costs.
Extensions (issued
                       nine incentive              of how the benefits will offset the costs and
May 18, 2012)
                       contracts: four CPAF        justifications and approvals for all contract
                       contracts, four CPAT        actions containing award-fee and award-term
                       contracts, and one          provisions
                       contract with both
                       award fees and terms




                                                            6
Recommendations related to the Department’s IT security, including those
reported in OIG-12-035-A, Significant IT Security Program Improvements Are Needed
to Adequately Secure NTIA's Systems (issued September 7, 2012), and OIG-12-037-A,
Improvements Are Needed to Strengthen ITA's Information Technology Security
Program (issued September 27, 2012)

The Federal Information Security Management Act of 2002 (FISMA) requires agencies to secure
systems against the loss, misuse, or unauthorized access to or modification of information
collected or maintained by, or on behalf of, an agency. In addition, FISMA requires inspectors
general to evaluate agencies’ information security programs and practices by assessing a
representative subset of agency systems, with results reported to the Office of Management
and Budget (OMB), Department of Homeland Security, and Congress annually. Over the years,
OIG has repeatedly identified significant flaws in basic security measures protecting IT systems
and information and made recommendations to correct them. Important recommendations
from two recent FISMA audits—of National Telecommunications and Information
Administration (NTIA) and International Trade Administration (ITA) systems, respectively—
remain unimplemented (see table below):




                                               7
                                Audit                                                                             Cost
Report                                             Top Unimplemented Recommendation(s)
                              Objective(s)                                                                       Savings
                                                   The Assistant Secretary for Communications
                                                   and Information should
                                                   •	 revise the authorization status of NTIA’s
                                                      systems to interim authorization to operate
                                                      until the following activities have been
                                                      completed:
                                                      (1) system owners and appropriate NTIA
                                                      officials collaborate to identify and categorize
                                                      all information types that are processed,
                                                                                                          Implementation of our
                          Assess the                  stored, or transmitted by each system and
                                                                                                          recommendations will
OIG-12-035-A,             effectiveness of            categorize each system accordingly
                                                                                                          improve the security
Significant IT Security   NTIA’s IT security          (2) system owners develop and maintain an           posture of NTIA’s
Program Improvements      program by                  accurate hardware and software inventory for        information systems.
Are Needed to             determining whether         their systems                                       However, we cannot
Adequately Secure         key security measures
                                                      (3) NTIA implements and assesses                    yet estimate particular
NTIA's Systems (issued    adequately protect its
                                                      appropriate IT security controls according to       cost savings associated
September 7, 2012)        systems and its
                                                      Department policy and NIST SP 800-53, and           with these
                          information
                                                      (4) NTIA follows the plan of action and             improvements.
                                                      milestones process required by the
                                                      Department’s IT security policy
                                                   •	 ensure that system owners, IT security
                                                      officers, authorizing officials, and other staff
                                                      with critical IT security roles are appropriately
                                                      trained, earn certifications as required by
                                                      Department policy, and have the required
                                                      metrics incorporated into their performance
                                                      plans.
                          Evaluate information                                                            Implementation of our
                          security controls and                                                           recommendation will
OIG-12-037-A,
                          security-related                                                                improve the security
Improvements Are
                          documentation for six    The Under Secretary of Commerce for                    posture of ITA’s
Needed to Strengthen
                          ITA systems, to          International Trade should ensure that only            information systems.
ITA's Information
                          determine whether        authorized software and USB devices are used on        However, we cannot
Technology Security
                          key security measures    both servers and workstations.                         yet estimate particular
Program (issued
                          adequately protect                                                              cost savings associated
September 27, 2012)
                          ITA’s systems and                                                               with these
                          information                                                                     improvements.

While the above recommendations remain unimplemented, both NTIA and ITA have made
significant progress toward implementation and expect to fully implement them by September
30 and October 1, 2013, respectively.




                                                               8
Recommendations related to NOAA environmental satellite programs, including
those reported in OIG-13-024A, Geostationary Operational Environmental Satellite–R
(GOES-R) Series: Comprehensive Mitigation Approaches, Strong Systems Engineering,
and Cost Controls Are Needed to Reduce Risks of Coverage Gaps (issued April 25,
2013); OIG-12-038-A, Joint Polar Satellite System (JPSS): Continuing Progress in
Establishing Capabilities, Schedules, and Costs Is Needed to Mitigate Data Gaps (issued
September 27, 2012), and OSE-18291, Successful Oversight of GOES-R Requires
Adherence to Accepted Satellite Acquisition Practices (issued November 20, 2007)

Managing risks in the acquisition and development of the next generation of environmental
satellites is a continuing challenge for the Department. The two most prominent programs, the
Joint Polar Satellite System (JPSS) and the Geostationary Operational Environmental Satellite-R
series (GOES-R), together accounted for one-third of NOAA’s FY 2013 budget request. They
are also the largest investments in the Department, comprising nearly 20 percent of the total
budget. However, with cost overruns, schedule delays, and the aging of NOAA’s current
constellation of satellites, NOAA is confronting coverage gaps for these critical weather-
forecasting and mission-essential assets.

Important recommendations from three of our NOAA satellite audits (dating back to 2007)
remain open or unimplemented (see table below):




                                               9
                                 Audit               Top Open (Unresolved)/Unimplemented                          Cost
Report
                               Objective(s)                     Recommendation(s)                                Savings
OIG-13-024A,                                        Open (unresolved) recommendations: The
Geostationary              Assess (1) the           NOAA Assistant Administrator for Satellite and
Operational                adequacy of contract     Information Services should ensure that NASA:
                           management and                                                               Our audit report
Environmental Satellite–
                           administration and (2)   • modifies contract award-fee structures to         identified $115 million in
R (GOES-R) Series:
                           the effectiveness of       reduce award fee percentages in accordance        potential monetary
Comprehensive
                           management’s               with the current NASA FAR Supplement, and         benefits—about $9
Mitigation Approaches,
                           direction, monitoring,     clearly articulates how scores should be          million in questioned
Strong Systems
                           and collaboration for      adjusted based on the magnitude of cost           costs and $106 million in
Engineering, and Cost
                           development of select      overruns.                                         funds to be put to better
Controls Are Needed to
                           components of the                                                            use.
Reduce Risks of                                     • adjusts future award fees to be more
Coverage Gaps (issued      GOES-R program             commensurate with contractor performance,
April 25, 2013)                                       to incentivize the contractor to control costs.
                                                                                                        While we cannot yet
OIG-12-038-A, Joint                                 Unimplemented recommendations: The NOAA
                                                                                                        project specific cost
Polar Satellite System     (1) Assess the           Deputy Secretary for Operations should:             savings, implementation
(JPSS): Continuing         adequacy of JPSS
                                                    • develop a policy that adheres to cost-            of our recommendations
Progress in Establishing   formulation activities
                                                      estimating best practices.                        should help prevent loss
Capabilities, Schedules,   and (2) monitor the
                                                                                                        of life and property by
and Costs Is Needed to     program’s efforts to     • ensure that an independent cost estimate          ensuring the availability
Mitigate Data Gaps         maintain continuity of     adequately tests the viability of the program’s   of critical data needed to
(issued September 27,      polar satellite data       funding profile.                                  predict severe weather
2012)
                                                                                                        events.
                                                                                                        With an estimated $23
                                                                                                        billion for the
                                                                                                        Department to spend on
                                                                                                        GOES-R and JPSS—two
                                                                                                        critical environmental
                           Determine whether                                                            satellite systems—over
                                                    Unimplemented recommendation: Department
OSE-18291, Successful      the Department and                                                           their life cycle, plus $2.5
                                                    officials should complete and implement the
Oversight of GOES-R        NOAA have                                                                    billion annually in major
                                                    Department’s major system acquisition policy
Requires Adherence to      established effective                                                        IT investments alone, the
                                                    and, for satellite programs, ensure the policy
Accepted Satellite         oversight mechanisms                                                         Department must have
                                                    incorporates the key decision points in NASA
Acquisition Practices      for handling their                                                           an effective oversight
                                                    Procedural Requirements (NPR) 7120.5D and
(issued November 20,       expanded roles and                                                           program in place. The
                                                    requires comprehensive independent reviews at
2007)                      are leveraging NASA’s                                                        benefits gained by
                                                    all key decision points.a
                           oversight expertise                                                          implementing our
                                                                                                        recommendation may
                                                                                                        result in cost savings;
                                                                                                        however, we cannot yet
                                                                                                        project a specific
                                                                                                        amount.
a In June 2010 the Department created a new process, the Commerce Acquisition Framework, to manage acquisitions and reduce risk.

On November 6, 2012, the Department issued a memorandum on its Commerce Acquisition Project Management policy for
implementation on all Department acquisition projects and programs. OIG expects the Department to develop an administrative order
for major system acquisition policy within 6 months.




                                                                10

